September 30, 2003

THOMAS G. DAY
VICE PRESIDENT, ENGINEERING

SUBJECT:     Audit Report - Inventory Management – Maintenance Stockrooms
             (Report Number AC-AR-03-007)

This report presents the results of our self-initiated audit of spare parts inventory
management at maintenance stockrooms (Project Number 01NR002AC003). Our
objective was to determine whether inventory stock levels in maintenance stockrooms
were appropriate. This audit was a result of our previous audit of Inventory
Management and Maintenance Repair Operations at the Topeka Material Distribution
Center. (See Prior Audit Coverage.)

Our audit disclosed, as of November 2002, spare parts inventory levels in the Postal
Service’s maintenance stockrooms exceeded demand by a projected $131 million, or
50 percent of the inventory, using the Postal Service criteria at the time of our review.
Our visits to 11 plants disclosed maintenance personnel routinely ordered more parts
than the inventory system’s recommended levels; did not perform the required annual
reviews to eliminate excess parts; and failed to consistently classify critical parts. In
addition, item managers at the Topeka Material Distribution Center made new
purchases for some parts with excess balances. As a result, the Postal Service
incurred additional costs acquiring new parts when sufficient parts were on hand. The
Postal Service should use the excess spare parts at the 103 selected maintenance
stockrooms before making new purchases for these parts and require maintenance
personnel at the remaining 315 maintenance stockrooms to identify excess inventory
balances. Further, if the Postal Service had better managed spare parts inventory, the
$131 million invested in excess inventory could have been used more efficiently.

We made ten recommendations to address inventory management issues. We
recommended Postal Service management establish controls over reorder procedures,
require management approval for excess quantities, develop a report to track reorder
trends, ensure annual reviews are conducted, program the inventory management
system to provide analysis reports, identify excess parts, use excess parts before
making any new parts purchases, and direct maintenance personnel to return excess
parts to the Topeka Material Distribution Center for use by other stockrooms. In
addition, we recommended management develop guidelines and establish requirements
for designating parts as critical; require maintenance personnel to
annually review parts for proper critical designation; and reprogram the field inventory
system to automatically calculate levels for critical parts needed.

Management agreed with all recommendations. Management’s actions taken or
planned, should correct the issues identified in the report. Management’s comments
and our evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendation 6 significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action(s) are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
director, Accepting and Processing, at (703) 248-2269 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Patrick R. Donahoe
    Richard J. Strasser, Jr.
    John A. Rapp
    Keith Strange
    Edward L. Gamache
    Earl J. Jones
    Ernest C. Dardis
    Walter F. O’ Tormey
    Susan M. Duchek
Inventory Management – Maintenance Stockrooms                      AC-AR-03-007



                                TABLE OF CONTENTS
 Executive Summary                                                 i

 Part I

 Introduction                                                      1

     Background                                                    1
     Objective, Scope, and Methodology                             2
     Prior Audit Coverage                                          3

 Part II

 Audit Results                                                     5

     Inventory Balances Exceed Demand                              5
        Replenishment Orders                                       5
        Annual Reviews                                             7
        Designation of Critical Parts                              8
     Recommendations                                               9
     Management’s Comments                                         9
     Evaluation of Management’s Comments                          12

     Matters for Postal Service Management Consideration          13

 Appendix A. Facilities Selected for Analysis                     14

 Appendix B. Statistical Sampling and Projections for Review of   16
             Field Inventory Management
                                                                  19
 Appendix C. Management’s Comments
Inventory Management – Maintenance Stockrooms                                                          AC-AR-03-007



                                       EXECUTIVE SUMMARY
Introduction                     This report presents the results of our self-initiated audit of
                                 spare parts inventory1 management at maintenance
                                 stockrooms. Our objective was to determine whether
                                 inventory stock levels in maintenance stockrooms were
                                 appropriate.

Results in Brief                 Our audit disclosed as of November 2002, spare parts
                                 inventory levels in the Postal Service’s maintenance
                                 stockrooms exceeded demand by a projected $131 million, or
                                 50 percent of the inventory, using the Postal Service criteria at
                                 the time of our review. Our visits to 11 plants disclosed
                                 maintenance personnel routinely ordered more parts than the
                                 inventory system’s recommended levels; did not perform the
                                 required annual reviews to eliminate excess parts; and failed to
                                 consistently classify critical parts. In addition, item managers
                                 at the Topeka Material Distribution Center made new
                                 purchases for some parts with excess balances. As a result,
                                 the Postal Service incurred additional costs acquiring new
                                 parts when sufficient parts were on hand. The Postal Service
                                 should use the excess spare parts at the 103 selected
                                 maintenance stockrooms before making new purchases for
                                 these parts and require maintenance personnel at the
                                 remaining 315 maintenance stockrooms to identify excess
                                 inventory balances. Further, if the Postal Service had better
                                 managed the spare parts inventory, the $131 million invested
                                 in excess inventory could have been used more efficiently.

Summary of                       We recommended Postal Service management establish
Recommendations                  controls over reorder procedures, require management
                                 approval for excess quantities, develop a report to track
                                 reorder trends, ensure annual reviews are conducted, program
                                 the inventory management system to provide analysis reports,
                                 identify excess parts, use excess parts before making any new
                                 parts purchases, and direct maintenance personnel to return
                                 excess parts to the Topeka Material Distribution Center for
                                 use by other stockrooms. In addition, we recommended
                                 management develop guidelines and establish requirements
                                 for designating parts as critical; require maintenance



1
  Inventory is material (parts) stored on-hand to support equipment breakdowns and customer requirements. Parts in
stockrooms were classified using a source code that identifies the source of supply for the part. Inventories included
repairable and consumable parts, parts from the General Service Administration schedules, the Defense Logistics
Agency, and commercially purchased parts.

                                                           i
Inventory Management – Maintenance Stockrooms                                     AC-AR-03-007




                           personnel to annually review parts for proper critical
                           designation, and reprogram the field inventory system to
                           automatically calculate levels for critical parts needed.

Summary of                 Management agreed with all recommendations to improve
Management’s               inventory management nationwide. Management stated they
Comments                   will establish controls over reorder procedures, require
                           management approval for excess quantities, track reorder
                           trends, and ensure annual reviews are conducted. In addition,
                           management agreed to program the inventory management
                           system to provide analysis reports, identify excess parts, and
                           direct maintenance personnel to return excess parts to the
                           Topeka Material Distribution Center. Management also
                           agreed to develop guidelines and establish requirements for
                           designating parts as critical, require maintenance personnel to
                           annual review parts for proper critical, designation, and
                           reprogram the field inventory system to automatically calculate
                           levels for critical parts needed.

                           Management stated they have reservations about the value of
                           the excess inventory being as high as $131 million; however,
                           they will accept that amount unless implementation of the
                           recommendations identifies a significantly different value.
                           Management also stated the true savings from inventory
                           reduction is the “cost of capital” or the carrying cost of stocking
                           inventory excess of current needs. Management’s assumption
                           of the cost of capital is 10 percent and savings would be
                           approximately $13 million. Management also stated that basic
                           operations philosophy requires maintenance to ensure that
                           equipment has minimum downtime. Therefore, they will err
                           toward ensuring that spare part shortages do not result in
                           excess downtime and its resultant cost consequences.
                           Management’s comments, in their entirety, are included in
                           Appendix C of this report.

Overall Evaluation of      Management’s actions taken or planned are responsive to all
Management’s               recommendations and should, correct the issues identified in
Comments                   the report.




                                                ii
Inventory Management – Maintenance Stockrooms                                                        AC-AR-03-007



                                            INTRODUCTION
    Background                     Postal Service equipment used directly or indirectly in
                                   moving the mail, includes items such as facer cancelers,
                                   letter sorting machines, remote barcoding machines, and
                                   parcel bundle machines. The Topeka Material Distribution
                                   Center in Topeka, Kansas, contracts for purchases, stocks,
                                   and manages repairable and consumable spare parts
                                   inventory to support equipment for maintenance purposes
                                   or when breakdowns occur. Maintenance stockrooms
                                   personnel maintain an inventory of parts and supplies,
                                   initiate replacement of stocked and nonstocked inventory
                                   items to control the flow and accountability of material,
                                   minimize equipment breakdown, and expedite repairs and
                                   routine work.

                                   Maintenance and plant managers at each site are
                                   accountable for the inventory stored in their facilities.
                                   The Visual Maintenance Activity Reporting and Scheduling
                                   System is used for ordering parts and scheduling
                                   maintenance on equipment at Postal Service facilities.
                                   The system establishes a reorder point when stock should
                                   be replenished. When the reorder point is at or below the
                                   requisitioning objective, the system automatically
                                   recommends a quantity to order based on authorized stock
                                   levels.2

                                   Oversupply, or excess stockroom inventory, is defined as
                                   any serviceable material stocked and on order that is
                                   greater than the installation’s needs and the established
                                   requisitioning objective for the part. Stockrooms maintain
                                   demand-based and nondemand-based parts. Demand
                                   based parts are stocked because the plant has a sufficient
                                   order history to warrant stocking parts at authorized levels.
                                   Nondemand-based parts include critical and insurance
                                   parts. Critical parts consist of parts that are important to the
                                   operation of the equipment to perform the installation’s
                                   mission. Insurance parts are stocked due to length of time
                                   required to obtain the parts. Local management at each
                                   installation designates items critical for their location.
                                   Insurance items are designated according to Postal Service
                                   Handbook AS-701, Material Management.



2
  Proper inventory management should keep the range (the number of parts) and depth (quantities) of inventories to
the minimum level necessary for effective customer support.


                                                         1
Inventory Management – Maintenance Stockrooms                                                           AC-AR-03-007




                                    As of accounting period 2, fiscal year (FY) 2003, the Postal
                                    Service maintained 418 stockrooms, with an inventory
                                    valued at approximately $260 million.

    Objective, Scope, and           The objective of the audit was to determine whether
    Methodology                     inventory stock levels in maintenance stockrooms were
                                    appropriate.

                                    To review inventory stock levels, we obtained a random
                                    sample consisting of on-hand balances in 103 stockrooms
                                    as of November 2002 from the Visual Maintenance Activity
                                    Reporting and Scheduling System. This system contains
                                    inventory data for all repairable, consumable, and other
                                    items stored in each stockroom. (See Appendix A for a list
                                    of facilities in our sample and the plants we visited.) To
                                    determine whether the inventory levels were appropriate or
                                    in excess, we applied the range and depth formula from
                                    Handbook AS-701, Material Management. We reduced the
                                    calculated amount by parts designated critical and
                                    insurance parts, at the end of their life cycle,3 and parts with
                                    fewer than 13 accounting periods of demand history to
                                    support the inventory levels. We also reduced the potential
                                    excess amount to allow for stockage of a quantity of the
                                    highest month’s demand, as requested by Postal Service
                                    management. In addition, because we noticed
                                    inconsistencies in identical parts designated as critical in
                                    several facilities, we analyzed 56 commonly used parts
                                    inconsistently designated (critical at some and not at others)
                                    at 8 of the 103 facilities.

                                    We interviewed Postal Service officials in the offices of
                                    Maintenance Policies and Programs, Supply Management,
                                    and Operations. In addition, we interviewed maintenance
                                    stockroom personnel at 11 plants to analyze inventory
                                    balances, clarify policies and procedures including Postal
                                    Service Handbook, MS-63, Maintenance Operations
                                    Support, and obtain information on specific parts at those
                                    facilities. Information from our analysis and interviews was
                                    used to identify potential causes for excess inventory at the
                                    11 plants visited.

                                    Our sample of 103 stockrooms allowed us to statistically
                                    project the total inventory value of excess parts. Details of
3
  Parts at the end of their life cycle are parts that are no longer needed to support equipment maintenance
requirements.


                                                          2
Inventory Management – Maintenance Stockrooms                                    AC-AR-03-007



                             our sampling methodology are in Appendix B.

                             This audit was conducted from October 2002 through
                             September 2003, in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.

                             We did not attempt to assess the reliability of the data from
                             the system as part of our audit objective.

 Prior Audit Coverage        We identified one prior OIG report related to the objective of
                             this audit, Inventory Management and Maintenance Repair
                             Operations (Report Number AC-AR-03-002, dated
                             March 28, 2003). Our audit disclosed approximately
                             $9 million in mail processing equipment spare parts
                             exceeding the demand were in inventory at the Topeka
                             Material Distribution Center as of April 2002. The excess
                             inventory was the result of item managers maintaining stock
                             levels that were above demand and because estimates for
                             initial provisioning of depot spare parts were sometimes
                             overstated. The report concluded the Postal Service should
                             use the $9 million in mail processing equipment repairable
                             spare parts prior to making any new spare part purchases.

                             We recommended management reevaluate authorized
                             stock levels to ensure the levels reflect demand data in the
                             Material Distribution and Inventory Management System,
                             coordinate with the Provisioning Improvement team to
                             develop a systematic process for estimating depot spare
                             parts, identify excess repair parts for equipment at the end
                             of its life cycle, and dispose of parts are no longer needed.

                             Management agreed with the recommendations.
                             Management stated they would review the stocking
                             objective process and develop a solicitation provision that
                             will encourage suppliers to use common parts. In addition,
                             management stated they would identify and dispose of end
                             of life parts, utilize spare parts prior to making any new
                             spare parts purchases, and dispose or repair “Not Ready for
                             Issue” parts.




                                                3
Inventory Management – Maintenance Stockrooms                                 AC-AR-03-007




                             Management disagreed that $15 million in excess spare
                             parts were in inventory. Management stated based on their
                             sampling of the highest dollar value inventory items, only
                             $1.25 million is excess spare parts. The other
                             $13.75 million consisted of items for initial provisioning,
                             insurance items, and end-of-life items where no external
                             suppliers were available. However, we disagreed with
                             management’s assertion that only $1.25 million of the
                             $15 million in repairable spare parts should be considered
                             excess. We considered the additional information provided
                             by management identifying $2 million as items for
                             equipment near its end-of-life and $4 million as insurance
                             items that can no longer be purchased on the open market.
                             As a result, we revised the total amount of excess spare
                             parts from $15 million to $9 million. Management’s
                             comments were responsive to the recommendations and
                             their actions, taken or planned, should correct the issues
                             identified in the report.




                                                4
Inventory Management – Maintenance Stockrooms                                    AC-AR-03-007



                                    AUDIT RESULTS
Inventory Balances          Our audit disclosed as of November 2002, spare parts
Exceed Demand               inventory levels in the Postal Service’s maintenance
                            stockrooms exceeded demand by a projected $131 million, or
                            50 percent of the inventory, using the Postal Service criteria at
                            the time of our review. Our visits to 11 plants disclosed
                            maintenance personnel routinely ordered more parts than the
                            inventory system’s recommended levels; did not perform the
                            required annual reviews to eliminate excess parts; and failed
                            to consistently classify critical parts. In addition, item
                            managers at the Topeka Material Distribution Center made
                            new purchases for some parts with excess balances. As a
                            result, the Postal Service incurred additional costs acquiring
                            new parts when sufficient parts were on hand. The Postal
                            Service should use the excess spare parts at the 103 selected
                            maintenance stockrooms before making new purchases for
                            these parts and require maintenance personnel at the
                            remaining 315 maintenance stockrooms to identify excess
                            inventory balances. Further, if the Postal Service had better
                            managed the spare parts inventory, the $131 million
                            investment in excess inventory could have been used more
                            efficiently.

Replenishment Orders        Maintenance personnel ordered more parts than the inventory
                            system’s recommended quantities, resulting in excess
                            quantities on hand. According to the Handbook AS-701,
                            Material Management, the system uses a reorder point
                            process, which calculates the recommended quantity to order
                            based on authorized stock levels. The system does not have
                            controls to prevent individuals from ordering above
                            recommended stock levels. Therefore, the system relies on
                            personnel to order and maintain the appropriate stock levels.
                            We found personnel were not judiciously managing the order
                            process. As a result, excess inventory existed for parts not
                            used to support current mission needs.

                            Maintenance personnel at 11 processing and distribution
                            centers indicated they routinely ordered parts in excess of
                            recommendations made by the Visual Maintenance Activity
                            Reporting and Scheduling System. Maintenance personnel
                            stated they ordered extra parts for several reasons:




                                                5
Inventory Management – Maintenance Stockrooms                                                     AC-AR-03-007




                                     •   Management at one plant instituted a local policy,
                                         which allowed 3 months of supply even if on-hand
                                         balances exceeded the inventory system’s
                                         recommendations.

                                     •   Managers were concerned that items might not arrive
                                         from the Topeka Material Distribution Center within
                                         established shipping times.

                                     •   Managers believed more parts were needed.

                                     •   Managers did not trust the inventory system’s
                                         recommendations.

                                     •   Items were stocked for emergencies and other
                                         unforeseen situations.

                                 We judgmentally reviewed six replenishment orders at
                                 five processing and distribution centers to determine whether
                                 maintenance personnel were able to order parts above stock
                                 levels recommended by the Visual Maintenance Activity
                                 Reporting and Scheduling System. Our analysis showed the
                                 system recommended replenishment requisition totaling
                                 $8,546; however, maintenance personnel increased the
                                 orders to $14,287, an increase of 67 percent. Maintenance
                                 personnel stated orders were increased because they were
                                 concerned parts would not arrive within established shipping
                                 times. To evaluate the validity of this concern, we analyzed
                                 192 shipments of ordered parts to three processing and
                                 distribution centers. We found 166 shipments were received
                                 on or before the due date and 26 shipments were late. For
                                 the late shipments, 16 were received less than a week after
                                 the due date, and 10 arrived more than a week late. We
                                 concluded that extended shipping times were not a valid
                                 reason for excessive reordering.

                                 We judgmentally selected 259 spare parts to perform detailed
                                 reviews at five processing and distribution centers.
                                 Maintenance personnel agreed that 96 of the 259 parts had
                                 excess balances on hand4 valued at $148,592. They also
                                 agreed that excess stock should be returned to the Topeka
                                 Material Distribution Center or offered to other plants. We
                                 also noted that item managers at the Topeka Material
4
 Some potential excess was not true excess because the parts should have been designated as critical. Also, some
parts were provided with equipment as initial spares and should not have been declared excess.


                                                       6
Inventory Management – Maintenance Stockrooms                                                           AC-AR-03-007



                                  Distribution Center had made new purchases totaling
                                  $28,431 for the line items with excess balances because they
                                  were unaware of the excess in the field.5

                                  As stated earlier in our report, maintenance personnel were
                                  ordering more parts than the field inventory system
                                  recommended. In the OIG’s March 28, 2003, report on
                                  inventory management at Topeka, item managers maintained
                                  on-hand inventory stockage levels of three to five accounting
                                  periods to supply parts requested from field maintenance
                                  personnel. Maintenance personnel continuing to order parts
                                  in excess of the system’s recommended quantity results in
                                  Topeka item managers initiating actions. These actions
                                  include new part purchases to ensure their established stock
                                  levels are sufficient to supply parts to field maintenance
                                  personnel. Consequently, the Postal Service incurred
                                  additional costs in purchasing and storing unneeded spare
                                  parts with funds that could have been spent more efficiently.

Annual Reviews                    Maintenance personnel in the 11 plants we visited had never
                                  performed the required annual reviews of inventory levels.
                                  Personnel stated they were not able to use a report generated
                                  from the inventory system, which identified excess parts, to
                                  perform these reviews. Postal Service Handbook MS-63,
                                  Maintenance Operations Support, requires each part in the
                                  stockroom be reviewed at least annually to determine whether
                                  the part can be declared excess. As a result, maintenance
                                  personnel continued to stock parts, creating excess inventory
                                  and increased administrative costs to manage and store
                                  excess parts.

                                  The field inventory system currently has a Low/Demand
                                  Report, which highlights infrequently used parts for each site.
                                  This report could be used to identify parts for excess
                                  reporting. However, maintenance personnel stated they did
                                  not use the report because it was voluminous. We reviewed
                                  the reports at three sites and found the reports were
                                  voluminous because they contained both demand-based and
                                  nondemand-based parts.6 A modification to the report



5
  Officials at the Topeka Material Distribution Center use the Material Distribution Management Information System to
manage inventory. This system is updated with the inventory system used by field maintenance personnel.
6
  Demand based parts are stocked because the plant has a sufficient order history to warrant stocking parts at
authorized levels. Nondemand-based parts include critical and insurance parts. Critical parts consist of parts that are
important to the operation of the equipment to perform the installation’s mission. Insurance parts are stocked due to
length of time required to obtain the parts.


                                                          7
Inventory Management – Maintenance Stockrooms                                                      AC-AR-03-007




                                 distinguishing demand-based and nondemand-based parts
                                 would be beneficial to maintenance personnel.

                                 We noted personnel at the Denver Processing and
                                 Distribution Center had begun a program that included regular
                                 inventory reviews. However, the program had not been in
                                 place long enough to produce significant inventory reductions
                                 at the time of our visit.

Designation of Critical          Maintenance personnel failed to properly designate critical
Parts                            parts because no policy and procedures existed to
                                 consistently identify these parts. Handbook AS-701, Material
                                 Management, states critical parts are nondemand-based that
                                 are used rarely and stock levels should be monitored to
                                 prevent excess. Because these parts were not properly
                                 identified, some parts appeared to be excess when they were
                                 required because of critical requirements.

                                 Our review of inventory data for 103 Postal Service facilities
                                 showed a wide disparity in the designation of critical parts in
                                 the maintenance stockrooms. Two processing and
                                 distribution centers located in Boston, Massachusetts, and
                                 Oakland, California, each had over $2 million in spare parts
                                 inventories. The Boston Processing and Distribution Center
                                 had no parts designated as critical, while the Oakland
                                 Processing and Distribution Center had over $1 million in
                                 parts identified.

                                 To further review this issue, we judgmentally selected
                                 56 commonly used stock numbers at eight processing and
                                 distribution centers7 for review. These stock numbers were
                                 selected because maintenance personnel at a minimum of
                                 80 of the 103 Postal Service facilities in our sample had
                                 designated them about equally as critical or noncritical in the
                                 Visual Maintenance Activity Reporting and Scheduling System
                                 and none of them were consistently coded in the system at
                                 the eight centers in our review. We discussed this with plant
                                 mangers at the eight centers and they agreed that 152 of the
                                 448 stock numbers (56 stock numbers at eight centers) were
                                 not designated correctly in the system and should be
                                 changed.


7
 Processing and distributions centers at Austin, Texas; Kansas City, Missouri; Orlando, Florida; the Northwest
Massachusetts Center, Waltham Massachusetts; Phoenix, Arizona; the M. L. Sellers Center, San Diego, California;
Denver, Colorado; and Spokane, Washington.


                                                        8
Inventory Management – Maintenance Stockrooms                                                       AC-AR-03-007



                                   Maintenance personnel stated that stock numbers were
                                   misclassified because they had not considered the full
                                   implications of critical part designation. In some cases, new
                                   employees did not know why stock numbers were not
                                   classified correctly. In addition, maintenance personnel at
                                   processing and distribution centers in Denver, Colorado;
                                   Spokane, Washington; and the M. L. Sellers Processing and
                                   Distribution Center, San Diego, California, agreed that 36 of
                                   168 stock numbers (the 56 stock numbers multiplied by the
                                   3 plants) were critical but still had excess balances on hand,
                                   valued at approximately $19,000.

                                   We also met with the acting manager,8 Office of Maintenance
                                   Policies and Programs, to determine how many of the 56
                                   stock numbers in our sample should be designated as critical.
                                   The acting manager and local maintenance personnel at the
                                   eight processing and distribution centers agreed that 33 of the
                                   56 stock numbers were critical. However, because Handbook
                                   AS-701, Material Management, is very general in nature,
                                   opinion was divided as to how many of the remaining 23 stock
                                   numbers were critical. The proper classification of critical
                                   spare parts is essential to ensuring that excess inventory does
                                   not exist.

Recommendation                    We recommend the vice president, Engineering:

                                   1. Establish controls within the inventory system to limit
                                      normal replenishment orders to quantities recommended
                                      by the Visual Maintenance Activity Reporting and
                                      Scheduling System.

Management’s                       Management agreed with the recommendation and stated
Comments                           they will change the inventory ordering system to require
                                   supervisory/management approval to exceed the system
                                   generated “recommended reorder quantity” by the end of
                                   quarter 3, FY 2004.

Recommendation                     2. Require management approval for orders in excess of
                                      inventory system requirements; these orders should
                                      include documented reasons for ordering a larger
                                      quantity.




8
    When the audit was conducted the official was acting manager, a permanent manager has been hired.


                                                         9
Inventory Management – Maintenance Stockrooms                                  AC-AR-03-007




Management’s                Management agreed with the recommendation and stated
Comments                    based on their actions taken in recommendation 1, any
                            automatic routine reorders above the recommended amount
                            in the inventory system will be precluded. Management
                            stated that any orders exceeding the normal reorder point will
                            be routed for “higher level approval.” Orders will require
                            supervisory access levels in the inventory system and a short
                            justification. Management stated this action will be completed
                            by the end of quarter 3, FY 2004.

Recommendation              We recommend the vice president, Engineering:

                            3. Develop a report for managers to use in tracking reorder
                               trends above the normal stock recommended by the
                               Visual Maintenance Activity Reporting and Scheduling
                               System.

Management’ s               Management agreed with the recommendation and will
Comments                    develop a report, which shows inventory ordering exceptions.
                            This report will be implemented by the end of Quarter 3, FY
                            2004.

Recommendation              4. Direct the manager, Maintenance Policies and Programs,
                               to ensure maintenance stockroom personnel comply with
                               the requirement to conduct annual reviews of inventory
                               levels.

Management’s                Management agreed with the intent of the recommendation.
Comments                    The policy requiring these annual reviews the Handbook,
                            MS-63, Maintenance Operations Support, is currently being
                            revised. As part of the revision process, management will
                            reissue national policy on this requirement and ensure line
                            management responsibility is clearly delineated. This action
                            will be completed by the end of quarter 3, FY 2004.

Recommendation              5. Program the Visual Maintenance Activity Reporting and
                               Scheduling System to provide useful reports for analyzing
                               inventory, which separate demand-based items from
                               critical or nondemand-based stock.

Management’s                Management agreed with the recommendation. Management
Comments                    reports will be developed to assist management in analyzing
                            inventory. These reports will separate demand stock items
                            from nondemand stock items. This will be completed by the
                            end of quarter 3, FY 2004.


                                                10
Inventory Management – Maintenance Stockrooms                                      AC-AR-03-007




Recommendation              We recommend the vice president, Engineering:

                            6. Require personnel from the 418 stockrooms to conduct a
                               review to identify excess spare parts Postal Service-wide
                               and use the excess parts before making new purchases.

Management’s                Management agreed with the recommendation. Management
Comments                    stated in addition to requiring personnel at the local level to
                            review inventory on an ongoing basis, they will initiate a
                            national effort to identify excess spare parts. This effort will
                            be completed by the end of FY 2004.

Recommendation              7. Direct maintenance personnel to return excess spare
                               parts to the Topeka Material Distribution Center for use by
                               other stockrooms.

Management’s                Management agreed with the intent of this recommendation.
Comments                    Management stated this situation is complicated by the fact
                            that not all stockroom parts come from the Topeka Material
                            Distribution Center. Some are from General Service
                            Administration, direct vendor delivery, and local purchases.
                            Management stated they intend to use the national review of
                            stock levels, noted in recommendation 6, to provide sites with
                            specific directions on disposition or specific parts that are
                            excess to their needs. This action will be completed by the
                            end of FY 2004.

Recommendation              8. Develop guidelines for determining whether maintenance
                               spare parts are critical and designate a central point of
                               contact to oversee the process.

Management’s                Management agreed with the intent of the recommendation.
Comments                    Management stated that as part of the national review of stock
                            levels, equipment specialists at the maintenance technical
                            support center will identify “insurance” or “critical” items. As a
                            result of this review, the Postal Service will publish a listing of
                            recommended “critical” and “insurance” parts. Management
                            will also provide a report in the inventory system that will
                            highlight parts in local inventories that do not comply with this
                            listing for review and approval by local management. This will
                            be completed by the end of quarter 3, FY 2004.




                                                11
Inventory Management – Maintenance Stockrooms                                   AC-AR-03-007




Recommendation              We recommend the vice president, Engineering:

                            9. Require all maintenance personnel to review parts for the
                               proper critical designation at least annually.

Management’s                Management agreed with the intent of this recommendation.
Comments                    Management stated this review will be based on the report
                            noted in recommendation 8. This will be completed by the end
                            of quarter 3, FY 2004.

Recommendation              10. Reprogram the Visual Maintenance Activity Reporting and
                                Scheduling System to automatically calculate levels for
                                critical parts to allow stocking no more than one critical
                                part in the absence of sufficient demand for that part. As
                                with demand-based stockage, allowances should be
                                made for management to override the system when
                                necessary, with proper documentation.

Management’s                Management agreed with the recommendation. Management
Comments                    stated that these programming changes to the inventory
                            system will be completed by the end of quarter 3, FY 2004.

Evaluation of               Management’s comments are responsive to
Management’s                recommendations 1 through 10. Management’s actions taken
Comments                    or planned, should correct the issues identified in the report.




                                                12
Inventory Management – Maintenance Stockrooms                                 AC-AR-03-007




Matters for Postal         During the audit, we observed that many spare parts with low
Service Management         demand are stocked because they are critical to mission
Consideration              accomplishment. We believe that in concentrated metropolitan
                           areas such as Chicago, New York, and other areas with many
                           plants located close to each other, funds used to support these
                           inventories could be reduced if low-demand critical parts were
                           stocked by one plant in the area. This would eliminate the
                           need for every plant to stock backup supply for low-demand
                           parts. During our audit, we noted many parts with no demand
                           for at least 1 year; these parts would be good candidates for
                           consolidated inventory. We can provide management with a
                           list of parts and locations to be considered for stockroom
                           consolidation, at their request.




                                                13
Inventory Management – Maintenance Stockrooms                                AC-AR-03-007




                                 APPENDIX A
                     FACILITIES SELECTED FOR ANALYSIS
Altoona P.O., Pennsylvania              Anchorage PDC, Alaska     Austin PDC, Texas*
Bakersfield PDC, California             Baltimore PDC,         Baton Rouge PDC,
                                        Maryland*              Louisiana
Boston PDC, Massachusetts               Brooklyn PDC, New York Buffalo GMF, New York
Burlington PDF, Vermont                 Cape Girardeau PDF,       Carol Stream PDC,
                                        Missouri                  Illinois
Charlottesville PDF, Virginia           Chicago BMC, Illinois     Columbus PDC, Ohio
Dallas BMC, Texas*                      Denver PDC, Colorado*     Detroit PDC, Michigan
Duluth REC, Minnesota                   Dominick V. Daniels       East Valley DDC,
                                        PDC, New Jersey           Arizona
Erie PDC, Pennsylvania                  Evansville PDC, Indiana   Flint PDC, Michigan
Frederick PDF, Maryland                 Ft. Meyers PDC, Florida   Ft. Worth PDC, Texas
Gary PDC, Indiana                       Grand Junction P.O.,      Grand Rapids Annex,
                                        Colorado                  Michigan
Great Falls P.O., Montana               Greensboro PDC, North     Harrisburg PDC,
                                        Carolina                  Pennsylvania
Hickory PDF, North Carolina             Jamestown P.O., New       Jersey Shore DDC,
                                        York                      New Jersey
Kalamazoo PDC, Michigan                 Kansas City PDC,          Kinston PDF, North
                                        Missouri*                 Carolina
Lansing PDC, Michigan                   Little Rock PDC,          Long Island City P.O.,
                                        Arkansas                  New York
Madison PDC, Wisconsin                  Manchester PDC, New       Mansfield P.O., Ohio
                                        Hampshire
Marysville PDF, California              McAllen PDF, Texas        Merrifield PDC,
                                                                  Virginia
Miami ISC, Florida                      Miami PDC, Florida        M. L. Sellers PDC,
                                                                  California*
Mobile PDC, Alabama                     Monmouth PDC, New         Muncie PDF, Indiana
                                        Jersey
New Jersey INT & BMC,                   North Metro PDC,          North Texas PDC,
New Jersey                              Georgia                   Texas
NW Massachusetts PDC,                   Oakland PDC,              O’Hare AMF, Illinois
Massachusetts*                          California*
Omaha PDC, Nebraska                     Orlando PDC, Florida*     Palatine PDC, Illinois




                                                14
Inventory Management – Maintenance Stockrooms                                       AC-AR-03-007




Patterson PDC, New Jersey                     Pensacola PDC, Florida      Philadelphia PDC,
                                                                          Pennsylvania
Phoenix PDC, Arizona*                         Pocatello P.O., Idaho       Portland PDC, Maine
Providence PDC, Rhode Island                  Raleigh PDC, North       Reading PDF,
                                              Carolina                 Pennsylvania
Richmond PDC, Virginia                        Roanoke PDC, Virginia    Royal Oak PDC,
                                                                       Michigan
Salt Lake City PDC, Utah                      San Bernardino PDC,      San Francisco BMC,
                                              California               California
San Jose PDC, California                      San Juan PDC, Puerto     Santa Ana PDC,
                                              Rico                     California
Santa Clarita PDC, California                 Seattle PDC,             Shawnee Mission P.O.,
                                              Washington               Kansas
South Bend PDC, Indiana                       South Florida PDC,       South Jersey PDC,
                                              Florida                  New Jersey
Southeastern Pennsylvania                     Spokane PDC,             Springfield GM-BC,
PDC, Pennsylvania                             Washington*              Massachusetts
St. Louis PDC, Missouri                       St. Paul BMC, Minnesota Stamford PDC,
                                                                       Connecticut
Suburban Maryland MSC,                        Tallahassee PDF, Florida Tulsa PDC, Oklahoma
Maryland
Waterbury PDF, Connecticut                    Westchester PDC, New        Wheeling P.O., West
                                              York                        Virginia
White River Junction PDC,                     Winston-Salem P.O.,         Wichita Falls Annex,
Vermont                                       North Carolina              Texas
Yonkers P.O., New York


*Asterisk denotes that plant visit was made to conduct detailed review.
P.O. – post office.
PDC – processing and distribution center.
GMF – group mail facility.
PDF – processing and distribution facility.
BMC – bulk mail center.
REC – remote encoding center.
DDC – distribution and delivery center.
ISC – international service center.
INT – international.
AMF – airmail facility.
GM-BC – group mail and bulk center.
MSC – mail service center.




                                                     15
Inventory Management – Maintenance Stockrooms                                   AC-AR-03-007



                            APPENDIX B
        STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW
                 OF FIELD INVENTORY MANAGEMENT

Purpose of the Sampling

One of the sub-objectives of this audit was to identify the value of excess maintenance
spare parts on hand at field stockrooms. In support of this sub-objective, the audit team
employed a stratified cluster sample of spare parts. The sample design allows
statistical projection of the total inventory value of parts in excess of the demand-based
quantity (excluding initial spare parts, parts with less than 13 accounting periods of
demand data, critical parts, parts needed for insurance reasons, and parts at the end of
their life cycle), using the Postal Service criteria and formula for the inventory
calculation.

Calculation of Excess

Excess quantity was calculated based on Chapter 4 of Handbook AS-701, Material
Management, and adjusted to represent undocumented changes to the equation
currently used in the Visual Maintenance Activity Reporting and Scheduling System.
The manager of Maintenance Policy and Programs provided changes.

EXCESS= [on hand + on order] - [max (maximum demand, requisitioning objective)]

where
        Requisitioning objective = (Average demand)(pipe/28) + (0.25)(Average demand)
        + 2 (Average demand)

Average demand was the average historical demand for accounting periods, calculated
over a maximum of 13 accounting periods. Maximum demand was the maximum
demand for a single accounting period over the 13 previous accounting periods.

A demand-based excess number of parts was calculated for each unique part (stock
number) and then multiplied by the price of the part to determine the value of excess.

Critical spare parts and parts needed for insurance reasons were designated separately
for each stockroom using critical and insurance designations in the Visual Maintenance
Activity Reporting and Scheduling System in addition to a list of catastrophic parts for all
stockrooms. Each unique part was designated separately.

Initial spare parts were designated as any parts that had been in inventory for less than
13 accounting periods or any parts shown on a list of provisioning parts for all
stockrooms. Each unique part was designated separately.




                                                16
Inventory Management – Maintenance Stockrooms                                   AC-AR-03-007



Definition of the Audit Universe

The audit universe consisted of all maintenance spare parts located at 418 field
stockrooms nationwide with a total inventory value greater than zero. Sample data
were obtained as close to the end of accounting period 2, 2003 as possible. The audit
universe was defined at the end of accounting period 2, 2003. Inventory values
obtained from the sample sites were used to adjust the exact end of the accounting
period 2 inventory audit universe to account for changes between the actual data call at
sample sites and the summary for the end of accounting period 2. The adjusted
inventory value of the audit universe was $263,176,136.

Sample Design and Modifications

For the purposes of sampling, each field stockroom was considered a cluster of
maintenance spare parts. The clusters were stratified into four strata based upon the
total inventory value of the cluster at the end of FY 2002. The strata were defined as
described below. Clusters in the first stratum were selected with certainty, and clusters
in strata two through four were selected at random (simple random sample). A total of
103 clusters (stockrooms) was selected in the sample.

                                                       Universe
          Stratum                 Total Value            Size     Sample Size
             1       Greater than $2 million              11         11
             2       Between $1 and $2 million            78         35
             3       Between $.5 and $1 million          112         30
             4       Less than $.5 million               217         27

The sample size was based on a stratified random sample design. We calculated the
sample size for a two-sided confidence interval, at the 95 percent confidence level and
8 percent precision, based on an attribute measure with expected occurrence rate of
50 percent. The allocation to the strata was based on our judgment. (We had no data
regarding variability on which to base a sample size or calculate an allocation for a
variable sample.)

Statistical Projections of the Sample Data

For the projection of the total excess inventory value in the audit universe, the sample
data were analyzed using the formulas for estimation of a population total using a ratio
estimator as described in Chapter 8, Elementary Survey Sampling, Scheaffer,
Mendenhall, and Ott, ©1990.

Results

Based on the sample results, the point estimates, bounds for a 95 percent confidence
interval, and achieved relative precision are as shown in the summary table.




                                                  17
   Inventory Management – Maintenance Stockrooms                                      AC-AR-03-007




                                                                           Achieved
                                                                            Relative
          Estimate                Point Estimate          Bounds           Precision
Excess less initial spare
                                   $131,148,139         $123,860,974 to
parts, critical, insurance, and                                           +/- 5.56 percent
                                                         $138,435,304
end-of-life items




                                                   18
Inventory Management – Maintenance Stockrooms        AC-AR-03-007



                 APPENDIX C. MANAGEMENT’S COMMENTS




                                                19
Inventory Management – Maintenance Stockrooms        AC-AR-03-007




                                                20
Inventory Management – Maintenance Stockrooms        AC-AR-03-007




                                                21
Inventory Management – Maintenance Stockrooms        AC-AR-03-007




                                                22
